Office of Inspector General
          United States
  Intematioml Trade Commission




               Planning Process for
                 the Commission's
                Research Program
                                 March 29, 2002
INSPECTOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                              WASHINGTON, D.C. 20436


   March 29, 2002

   MEMORANDUM

   TO:        THE COMMISSION

   We hereby submit Audit Report No. OIG-AR-OI-02, Planning Processjor the
   Commission's Research Program. We conducted this audit to evaluate the
   effectiveness of the Commission's planning process for the Research Program.

   The audit revealed that customers were satisfied with the Commission's research
   reports. Customers were impressed with the Section 332 requested reports, and
   excellent relationships have been developed with the staff Areas that the
   Commission may consider taking action to further satisfy its customers are the
   analysis and subject selection process. Customers believed analysis was not always
   unique or groundbreaking and they used other sources of information. Additionally,
   they would like to have the Commission issue a report on other suggested subject
   areas for consideration.

   While the Commission's customers were generally satisfied, improvements are
   needed to identify and prioritize future Research Program projects while ensuring
   resources are effectively used. The three recommendations we made to strengthen
   the planning process were to:

         I.   Include an internal and external solicitation of proposed projects for the
              annual plan, a rationale for the proposed project, and identification of
              resources needed for the project. A schedule should be prepared identifying
              the ongoing projects and newly selected projects in priority order.

         2. Add a performance indicator that can be linked to the budget, actual costs
            and management challenges, such as the need to be flexible and respond
            rapidly to conduct unanticipated projects. This performance indicator should
            supply sufficient and reliable data to support program management and
            budgeting ofthe Research Program.

      3. Direct staffto record their time by project, including customer assistance,
         and ensure that the time and attendance system captures the data necessary
         for planning, accountability, and performance measurement to measure costs
         efficiency and cost effectiveness.
The actions listed in response to our draft report met the intent of the
recommendations. Although management did not agree to add an indicator in the
Research Program's Performance Plan, the planned actions to address the third
recommendation will allow management to compare estimated costs approved by the
Commission with actual project costs, and a quarterly report on independent research
projects. This data will assist in the support of program management and budgeting.

We appreciate the courtesies and cooperation provided to our auditors during the
audit. If you wish to discuss this report, you may contact me .Iat (202) 205-2210.




Attachment

cc: Office Directors
 OFFICE OF INSPECTOR GENERAL




   PLANNING PROCESS FOR THE
COMMISSION'S RESEARCH PROGRAM

         Audit Report
         OIG-AR-OI-02
Planning Process for the Commission's Research Program                          OIG-AR-OI-02


TABLE OF CONTENTS

1.     SUMMARY OF RESULTS                                                                            1

II.    BACKGROUND                                                                                    1

III.   OBJECTIVE                                                                                     2

IV.    l\.1ETHODOLOGY & SCOPE                                                                        3

V.     DETAILS OF RESULTS                                                                            3

       A.      Customer Satisfaction                                                                 3

       B.      Planning Process and Performance Measurement                                          4

               Recommendations                                                                       7
               Management's Response                                                                 7
               OIG Comment                                                                           8

Attachment 1 - OIG Customer Survey Responses                                                         10

Attachment 2 - Management's Response Letter                                                          12




                                                         Office ofInspector
                                                                     ..     General
                                                              us. International Tr:J.de Commission
Planning Process for the Commission's Research Program                                       OIG-AR-OI -02


I.      SUMMARY OF RESULTS

Customers -- responding to customer satisfaction surveys conducted by both the Office of
Inspector General (OIG) and the U. S. International Trade Commission (Commission) --
were satisfied with the value and quality of the Commission's research reports,
particularly Section 332 1 reports. Several customers described the Commission's
research staff as reliable and dependable. Although the survey responses were generally
favorable, the Commission could improve customer satisfaction by strengthening its
analysis and subject selection processes. Many customers, believing the Commission's
analysis not to be unique, used additional sources for information. Also, some customers
would like the Commission to report on other subjects, such as international food safety
and the information technology industry.

While the Commission established a plan for the Research Program that contained
strategic goals, general strategies and critical success indicators, improvements are
needed to identify and prioritize future projects while ensuring resources are effectively
used. We found that the plan did not include an indicator to measure cost effectiveness
and efficiency. Also, the Commission did not have a formal planning process to identify
and prioritize non-discretionary and discretionary' projects. Finally, because time was
not always recorded per project, it did not have reliable data to estimate potential projects
and resource hours for next year's work. However, during this audit the Commission
modified its time and attendance systerrr' to capture time spent on specific projects, and
the Directors in the Offices of Operations and Industries directed employees to record
their time accordingly.

We made three recommendations to improve the Research Program's planning process,
and actions listed by management in response to our draft report met the intent of these
recommendations. Additionally, we considered management's comments on the content
of our findings and made the appropriate changes. Management's response is presented
in full as Attachment 2.

II.     BACKGROUND

The Commission is an independent, quasi-judicial federal agency established by
Congress with a wide range of trade related mandates. Its mission is to: administer U.S.
trade remedy laws within its mandate in a fair and objective manner; provide the
President, the United States Trade Representative (USTR) and the Congress with


I A Section 332 project -- referring to Section 332 of the Tariff Act of 1930 -- is a general fact-finding
investigation in which the Commission conducts an analysis of trade and competitiveness issues.
2 A discretionary project is defined as a non-mandated study or self-initiated study. For reporting purposes
only, a discretionary project includes technical assistance that is provided both informally in immediate
response to a telephone inquiry and more formally through written correspondence and public speaking.
3 The Commission used the U.S. Department of the Interior's "Federal Personnel/Payroll System" to enter
employee payroll and related data. Data may be extracted from this system and entered into a labor code
database.


                                                                     Office ofInsvector General
                                                                                      1

                                                                             us. Iuternational Trade Commission
Planning Process for the Commission's Research Program                              OIG-AR-OI-02


independent, quality analysis, information, and support on matters of tariffs and
international trade and competitiveness; and maintain the Harmonized Tariff Schedule of
the U.S. In so doing, the Commission serves the public by implementing U.S. law and
contributing to the development and implementation of sound and informed U.S. trade
policy.

The Commission has five major operations that serve its customers. The five operations
include (1) Import Injury Investigations, (2) Intellectual Property-Based Import
Investigations, (3) the Research Program, (4) Trade Information Services, and (5) Trade
Policy Support.
                                 I


The focus of this audit was the Research Program. The Commission provides
independent assessments on a wide range of emerging trade matters. These studies
include:

        •   Trade-related investigations or reports requested by the President, the
            Congress, the House Committee on Ways and Means, the Senate Committee
            on Finance or either branch of the Congress, under the authority of Section
            332 of the Tariff Act of 1930.

        •   Probable economic effect investigations at the request of the President, under
            the authority of Section 131 ofthe Trade Act of 1974.

The knowledge and skills developed by the Commission's staff through the Research
Program are used to support the Commission's other operations and provide immediate
assistance to the Congress and the executive branch on trade issues. The research
activities are conducted principally with resources from the Offices of Industries,
Economics, and Tariff Affairs and Trade Agreements. This operation accounts for
approximately 36.1 percent of the Commission's budgetary resources and 38.6 percent of
the Commission's work year.

In 1995, the Commission developed its first strategic plan as called for in the
Government Performance and Results Act of 1993 (Results Act). The Commission's
strategic plan includes a mission statement, a vision statement and the goals and
objectives for all of its five operations. The Research Program's goals and objectives
section includes strategic goals, general strategies and critical success indicators that will
be used to accomplish its program goals.

III.   OBJECTIVE

The objective of this audit was to evaluate the effectiveness ofthe Commission's
planning process for its Research Program.




                                                            Office ofInspector General
                                                                             1
                                                                   us. Inte17J3tioI13! Tude Commission
                                               2
Planning Process for the Commission's Research Program                           OIG-AR-OI-02


IV.    METHODOLOGY AND SCOPE

We engaged Leon Snead & Company, P.C. to assist in conducting this audit. We
conducted our audit from April 30, 2001 through September 27, 2001, (fieldwork from
May 31, 2001 through July 30, 2001) at the Commission located at 500 E Street, S.W., in
Washington, D.C.

We interviewed Commission personnel as follows: the Director of the Offices of
Operations, Industries, Economics, and External Relations; 4 Division Directors, 9
Branch Chiefs, and 22 Analysts in the Office of Industries; 2 Division Chiefs and 7
Economists in the Office of Economics; and 1 staff member in the Office of External
Relations. The interviews were unstructured, and interview questions were open ended.

We also reviewed all 65 Reader Satisfaction Surveys (a survey is attached to each
Commission report) that were returned to the Commission in 1999 and 2000. In addition,
we conducted our own customer satisfaction survey, which focused on whether the
Research Program adequately anticipated its customers' needs and the customers' degree
of usefulness of the various reports. We obtained a list from the Commission of
approximately 1,200 Commission customers who received copies of any of the various
reports including the International Economic Review, the Industry Trade and
Technological Review, and the Industry & Trade Summary. From this list, we sampled
300 customers with a focus being placed on Congressional and USTR customers. We
also interviewed two Commission customers to determine their level of satisfaction with
the reports.

We conducted our audit in accordance with the U.S. General Accounting Office's
Government Auditing Standards, 1994 Revision, as amended, promulgated by the
Comptroller General of the United States.


V.      DETAILS OF RESULTS

       A. Customer Satisfaction

Overall, customers were satisfied with the Commission's research reports. Of the 53 that
responded to our survey and the 65 that returned the Commission's Reader Satisfaction
Survey, similar positive results were provided on the value and quality of the reports.
Furthermore, several customers advised us that they were impressed with the Section 332
reports they requested. The customers also stated that they had developed excellent
relationships with the Commission staff, who were described as reliable and dependable.
The responses to each question to our customer survey are presented in Attachment 1.

Areas the Commission may consider taking action to improve customer satisfaction are
the analysis and subject selection processes. Based on the responses from our survey, 46
percent of respondents believed that the analysis was not unique or groundbreaking.


                                                         Office ofInspector General
                                                                         "
                                                               us. International Trade Commission
                                             3
Planning Process for the Commission's Research Program                                OIG-AR-OI-02


When asked if the Commission was their only source of information, 58 percent that we
surveyed and several respondents to the Reader Satisfaction Survey said "no". Although
this question was on the Commission's survey, management advised us that they would
not expect customers to rely on a single source any more than the Commission relies on
single sources. Other sources customers listed in response to our survey included trade
association publications, academic studies, the Internet, economic research institutes,
think tank reports, the U.S. Department of Commerce, and the U.S. Census Bureau.
Finally, approximately one-third that responded to our survey would like to see
Commission reports in other subject areas such as international food safety, the
information technology industry, cosmetics, footwear, apparel, organic chemicals, music,
oil, industrial robotics, and detailed statistics for specific countries.

       B. Planning Process and Performance Measurement

The Commission developed strategic goals, general strategies and critical success
indicators for the Research Program, but improvements are needed to identify and
prioritize future projects while ensuring resources are effectively used to achieve its
goals. We found that the Commission did not solicit suggestions for future projects from
the staff or prioritize non-discretionary and discretionary projects based on importance or
available resources. Also, the performance indicators did not include cost efficiency and
effectiveness measures needed to support budgeting and program management.
Additionally, cost data were not available for planning and accountability because time
was not always recorded per project. It was not until this audit that: the Commission
modified its time and attendance management system by adding labor codes to capture
time by certain projects, and the Directors in the Offices of Operations and Industries
directed employees to record their time accordingly. With this modification, data can be
extracted to go into a labor code database for management's use.

The Results Act was intended to help federal managers improve service delivery by
planning to meet program objectives and provide information about program results and
service quality. Performance plans establish performance indicators to be used in
measuring or assessing the relevant outputs, service levels, and outcomes of each
program activity. Additionally, Office of Management and Budget Circular A-127,
"Financial Management Systems", states that agency financial management systems shall
meet performance measurement requirements. Agency financial management systems
shall be able to capture and produce financial information required to measure program
performance, financial performance and financial management performance as needed to
support budgeting, program management and financial statement presentation.




                                                          Office ofInsoector General
                                                                              1
                                                                u.s. l11te17J:Jti0l1Jj Trdde Lommissioll
                                             4
Planning Process for the Commission's Research Program                                         OIG-AR-OI-02


The Research Program's strategic goals and performance indicators established by the
Commission are presented below.

                    Strategic Goals                                Performance Indicators
           1. Obtain increased use of                       Track the level of visitors
              Commission research                           downloading reports; requests for
              capabilities/products by                      reports; written comments from
              customers including Congress,                 users; number of witnesses
              USTR, peers and the public.                   testifying at Section 332 hearings;
                                                            and number of new requests for
                                                            Section 332 investigations.

           2. Institute study initiatives in                Track the number of self-initiated
              emerging areas/issues.                        projects and presentations.

           3. Complete work on or before                    Track the percent of Section 332
              deadlines.                                    reports to requestors on time.



Identify And Prioritize Future Projects

According to management, planning takes place throughout the year. Senior
management stated that they met separately with USTR and Congressional staff members
three or four times a year to explain their services and how they could meet the needs of
both existing and potential customers. The Director of the Office of Economics met with
Congressional staff members once during the audit period. Senior managers also stated
that they held annual feedback and brainstorming sessions" with members of the House
Ways and Means Committee and Senate Finance Committee as well as Congressional
staff and USTR officials. In addition, the Commission's Office ofExternal Relations
personnel serve as facilitators between the Commission and the USTR, the Senate
Finance Committee, the House Ways and Means Committee and Congressional staff

While the above actions are critical in developing future projects, we found no evidence
of coordinated annual planning--needed to address research project selection criteria,
allocation of resources among projects, or integration of projects into an overall, coherent
program -- at middle and lower management levels. Of the 19 managers interviewed, 16
(84 percent) indicated that they did not set any annual goals for their division or branch,
and 10 (53 percent) indicated that they did not do any annual planning regarding the
allocation of resources among projects or project selection criteria. By soliciting
proposed projects from all management levels as well as staff members, managers would
be able to better manage their responsibilities and additional projects could be suggested


4   Such meetings did not take place during the audit period.


                                                                       Office ofInspector
                                                                                        ..          General
                                                                             u.s. [ntrrnationsl Trade commission
                                                        5
Planning Process for the Commission's Research Program                           OIG-AR-OI -02


for consideration. Survey respondents who declared their excellent relationships with the
Commission's staff may also have suggested projects directly to the staff

Management supplied us with a list of III future non-discretionary and discretionary
Research Program projects. Not all projects on the list had a rationale for selecting the
project, and the projects were not prioritized based on importance or available resources.
Setting priorities for projects is important given the Commission's unpredictable
workload. Unanticipated Section 332 investigations have a higher priority and require
the staff to set aside independent research projects or self-initiated studies, such as
Industry Trade and Technology Reviews, Industry Economic Reviews, research papers
and other publications. Similarly, unanticipated Title 7 investigations take precedence
over Section 332 investigations.

Effective Use Of Resources

With an unpredictable workload, management must plan its use of discretionary
resources. However, except for travel expenses, the Commission did not collect
historical data needed for planning or tracking the resources spent on individual projects.
Additionally, the performance plan did not include performance indicators to measure
cost efficiency and effectiveness for the Research Program.

Responses by managers and staff members we interviewed support the lack of data
needed for planning and determining whether resources were used effectively and
efficiently:

    •   Of 19 managers, 9 (47 percent) said that no one tracked resources expended by
        specific project, and 4 (21 percent) responded that resources expended on a
        project were tracked. Three others responded that only travel expenses were
        closely tracked, and three did not respond.

    •   Similarly, of29 analysts and economists, 13 (45 percent) said resources were not
        tracked by project, and 4 (14 percent) said they were tracked. One said only
        travel was tracked, and 11 did not respond.

    •   Of 38 first level managers and staff, 18 (47 percent) said there was no system in
        place to ensure the project team did not go outside of their budget boundaries.
        Four (11 percent) said there was a system, and two were uncertain. Three said
        only travel was tracked, and 11 did not respond.

    •   Of 10 senior and middle level managers, 6 (60 percent) said that no one compared
        budget to actual expenditures by project, and 3 (30 percent) said a comparison
        was done. One said only travel was so analyzed.




                                                          Office ofInsvector General
                                                                          1
                                                                 us. Intrrnational Trade Commission
                                              6
Planning Process for the Commission's Research Program                            OIG-AR-OI -02



For the time and attendance system, some staff members recorded their time by project
and some did not:

   •   Of 15 middle and first level managers, 10 reported that their staff accounted for
       their time in general categories; 4 reported that their staff accounted for their time
       by project. One manager stated that only sometimes the staff accounted for their
       time by project.

   •   Of29 analysts and economists, 18 indicated that they recorded their time in
       general categories; 11 indicated they recorded their time by project.

Although time sheets included a line item for recording hours spent providing assistance
to the public or Congress, no process had been developed to record the number of calls
received and answered for customer assistance.

Absent project-specific data, efficiency, such as cost in hours and dollars, was not
measured even though labor was the largest portion of the Research Program's budget.
In 1995, the Commission developed its first strategic plan. Although the Commission's
fiscal year (FY) 1999 Program Performance Report (PPR) established baseline
measurements for future years' performance indicators, the FY 1999 and FY 2000 PPRs
did not establish specific measurable goals for future years. The FY 2002 Budget
Justification included comparisons of actual to estimated (based on prior years) future
figures for the Research Program's caseloads, work years, and dollars allocated by
operation through FY 2002. However, without reliable project-specific resource data, the
Commission could not reasonably assure that human resources were being committed
efficiently and performance measures were being met. The Commission did, however,
begin tracking resource hours spent on certain projects during the audit, but all projects --
non-discretionary and discretionary -- should be tracked.

       Recommendation 1:
       Annually, the Directors of the Office of Industries and the Office of Economics
       should prepare a project plan for the Research Program. The process for
       preparing the annual plan should include an internal and external solicitation of
       proposed projects, a rationale for the proposed project, and identification of
       resources needed for the project. A schedule should be prepared identifying the
       ongoing projects and newly selected projects in priority order.

       Management's Response:
       Management concurred with this recommendation. Each June, the Directors of
       the Offices of Industries and Economics will prepare a project plan for the
       following fiscal year. The plan will take into account input from the staff, USTR,
       Congressional staff members and Commissioners. A rational for each project, a
       tentative schedule, and a priority indicator (e.g., high, medium and low) will be
       provided. Progress of the projects will be monitored and adjustments made to the
       plan based on requested studies or higher priority work.

                                                           Office ofInspector General
                                                                           1
                                                                  us. Intemstioual Trade Commission
                                              7
Planning Process for the Commission's Research Program                           OIG-AR-OI-02




       DIG Comment:
       The above actions met the intent of the recommendation.

       Recommendation 2:
       The Directors of the Office of Industries and the Office of Economics should add
       a performance indicator that can be linked to the budget, actual costs and
       management challenges, such as the need to be flexible and respond rapidly to
       conduct unanticipated projects. This performance indicator should supply
       sufficient and reliable data to support program management and budgeting of the
       Research Program.

       Management's Response:
       Although management did not agree to add an indicator in the Research
       Program's Performance Plan, the actions cited in response to recommendation 3
       satisfied this recommendation. Use of expanded labor codes in the time and
       attendance system will allow management to compare estimated costs approved
       by the Commission with actual project costs while recognizing each project's
       indeterminacy related to such issues as data/information sources, availability, and
       appropriate research methods. Additionally, management will prepare a quarterly
       report on independent research projects. This data will assist in the support of
       program management and budgeting.

       OIG Comment:
       The above actions met the intent of the recommendation. As management
       responded, designing a useful or "concrete" performance indicator can be
       difficult. However, because performance planning is an iterative process,
       management will have the opportunity to revisit this challenge in the future.

       Recommendation 3:
       The Directors of the Office of Industries and the Office of Economics should
       direct staffto record their time by project, including customer assistance, and
       ensure that the time and attendance system captures the data necessary for
       planning, accountability, and performance measurement to measure cost
       efficiency and cost effectiveness.

       Management's Response:
       Management generally concurred with this recommendation. Steps have already
       been taken to provide additional cost information breakouts. Individual Section
       332 studies and pending 332 studies are tracked in the time and attendance
       system. Also, management is working to (1) create a further breakout to separate
       time spent for staff research studies and issue papers from working papers and
       research notes and (2) provide more detailed information on technical assistance
       to other agencies. Management will work with timekeepers and staff to ensure
       that the new codes are used.


                                                         Office ofInspector
                                                                     ..     General
                                                                us. Imrtnstional Trdde   Commission
                                             8
Planning Process for the Commission's Research Program                           OIG-AR-OI-02




       Management will also monitor various types of independent research by
       publication type and general subject matter outside the time and attendance
       system due to limitations of the current system. A report will be prepared
       quarterly. Significant inquiries requiring action or affecting the Commission are
       reported to the Office of External Relations.

       DIG Comment:
       The above actions met the intent of the recommendation.




                                                         Office ofInsoector General
                                                                           1
                                                               u.s. Intcrnarional Trade Commission
                                             9
Planning Process for the Commission's Research Program                             OIG-AR-OI-02

Attachment 1
Page 1 of2
                   OIG CUSTOMER SURVEY RESPONSES

Below are the results of our questionnaire sent to 300 of approximately 1,200 customers
who receive copies of Commission reports. Of the 300 customers surveyed, 53 (18
percent) responded.

1)     Are Commission reports useful to you/your organization? (Please rate 1-5)
       Very useful  1      2       3      4       5      Not useful

        Response                         Number          Percent
        I-Very Useful                      22              42%
        2-Somewhat Usefid                  13              25%
        3-Neither Useful or                 9              17%
          Not Useful
        4-Somewhat Not Useful                5             10%
        5-Not Useful                        -2              6%
        Total*                              52           1000/0

2)     Was any information missing from the reports that you consider important?

        Response                         Number          Percent
        Yes                                 9               18%
        No                                 -AI              82%
        Total*                              50            100%

3)     Are there other subject areas for which you would like to see Commission
       reports?

        Response                         Number          Percent
        Yes                                18              39%
        No                                 28              61%
        Total*                             46             1000/0

4)     Did the reports present new information?

        Response                         Number          Percent
        Yes                                46              92%
        No                                 --4               8%
        Total*                              50            1000/0




                                                            Office ofInsvector
                                                                        1
                                                                               General
                                                                   us. Intcmational Trad« Commission
                                             10
Planning Process for the Commission's Research Program                             OIG-AR~OI-02


Attachment 1
Page 2 of2
                      OIG CUSTOMER SURVEY RESPONSES

5)     Did the Commission analysis add value?

           Response                      Number          Percent
           Yes                             50              96%
           No                              ----.2           4%
           Total*                           52            100%

6)     Was the analysis unique or groundbreaking?

           Response                      Number          Percent
           Yes                             25               54%
           No                              2.1             46%
           Total*                           46            100°A.

7)     Was the information timely?

           Response                      Number          Percent
           Yes                             36              72%
           No                              ---.H           28%
           Total*                           50            100°A.

8)     Is the Commission the only source of this information?

           Response                      Number          Percent
           Yes                             20               42%
           No                              28               58%
           Total*                           48            100%

9)     Additional comments made were:

       -   Time lag between collection and publication is unfortunate
       -   Lack of recent trade data/statistics
       -   Value added services
       -   Accurate data and market information
       -   Staff is very helpful
       -   Format is plain
       -   Good source for non-technical data

* Out of the 53 responses, this is the total number of respondents to this question.



                                                            Office ofInsvector General
                                                                            1

                                                                   us. Iniemational Trade Commission
                                              11
                                                                        Attachment 2




UNITED STATES INTERNATIONAL TRADE COMMISSION

                            WASHINGTON, DC 20436




February 20, 2002                                                        OP-Z-003




MEMORANDUM


TO:
           Inspector General      "lf~v
FROM:      RobertA. Ro~wsky /~"',)             ~
           Director of Operations              <---J
SUBJECT: Response to IG Draft Report OIG-AR-OI-02: Planning Process for the
         Commission's Research Program

Attached is the Office of Operations' response to the OIG Draft Report OIG-AR-Ol-
02 (Planning Process for the Commission's Research Program) of January 25,2002.
The response consists oftwo attachments. Attachment 1 includes IG
recommendations and proposed actions to be taken. Attachment 2 includes
suggestions regarding correction/clarification of the draft report language.

In accordance with USITC Directive 1701.2, paragraph 12, the attached response has
been reviewed by the Commission and reflects comments provided by the
Commissioners. Please call me if you have any questions.

Attachments

cc: The Commission
    GC, D/ADMIN, D/EC, D/ID, D/ER


                                          APprove:~              Disapprove:
                                                                                ---




                                     12
              ATTACHMENT 1. IG RECOMMENDATIONS AND STAFF RESPONSE


Recommendation 1
Annually, the Directors ofIndustries and Economics should prepare a project plan for the Research
Program. The process for preparing the annual plan should include an internal and external
solicitation ofproposed projects, a rationalefor the proposedproject, and identification ofresources
neededfor the project. A schedule should he prepared identifying the ongoing projects and newly
selected projects in priority order.

We agree. Considerable planning already goes into the direction ofthe Research program and the
resources to be devoted to it. Considerable thought is put into the level of resources required during the
budgeting process; many 332 studies are anticipated in advance as a result of the close staff contact with
customers; recurring reports series are planned for annually; staff details are anticipated; and the Office
of Economics has specific long-term plans for building technical research capabilities.

However, the Commission cannot determine precisely on an annual basis the nature or level of section
332 studies that will be requested, their timing, or the specific individuals who will be required for these
studies. For this reason, it is difficult to adhere to a formal annual plan for "self-initiated" research or
guarantee staff that they will be able to work continuously on such projects or even complete them.
While management does plan ongoing self-initiated research, when a new 332 request arrives we will not
hesitate to reassign staff as they are needed on requested work. To illustrate the problem we have with
planning, we are currently aware of at least 8 different major studies that are under active consideration
now by our requesters, but we are not certain whether they will actually be requested, the timing, or the
exact scope.

Nevertheless, we agree that it is useful to continue to solicit project proposals, establish tentative
schedules, reevaluate current research efforts, and establish general priorities for the upcoming year.
Moreover, to make these efforts more visible, we intend that each June (to coincide with Office budget
submissions), Industries and Economics will prepare a project plan for the following fiscal year. The
plan will take into account input from office staff, input from USTR and Hill, and suggestions from
Commissioners. Office staff are in frequent contact with members of the trade community and are aware
of their interests. A rationale for each project, a tentative schedule, and a general indication of priority
(e.g., high, medium, and low) will be provided. The plan will be organized by Office and Division and
will identify cross-Office and cross-Division research projects. The progress of planned research
projects will be monitored at the Division or Branch level, as appropriate. However, we shall operate
this program knowing that many of these plans may be overridden by requested studies or other higher
priority work.


Recommendation 2
The Directors ofIndustries and Economics should add a performance indicator that can be linked to
the budget, actual costs and management challenges, such as the need to be flexible and respond
rapidly to conduct unanticipated projects. This performance indicator should supply sufficient and
reliable data to support program management and budgeting ofthe Research Program.

This recommendation is more difficult. The Strategic Planning Committee has been considering
performance indicators for a number of years. In the end, it adopted indicators much like the ones the IG
used in this audit-various measures of user satisfaction with ITC research projects. The actual
performance indicators include feedback from customers/users, level of requests for new investigations,

                                             13
activity on research portion of Website, and demand for hard-copy reports. We feel our "need to be
flexible and respond rapidly to conduct unanticipated projects" is reflected in the two remaining
indicators covering level of self-initiated research (a measure of our state of readiness) and timeliness (a
measure of our actual ability to respond quickly). As always, staff continues to be open to concrete
suggestions regarding performance indicators.


Recommendation 3
The Directors ofIndustries and Economics should direct staffto record their time by project,
including customer assistance, and ensure that the time and attendance system captures the data
necessary for planning, accountability, and performance measurement to measure cost efficiency and
cost effectiveness.

We agree that the Commission needs additional cost information breakouts in our T&A system. If fact
we have already taken steps to expand the system and certain of those changes are now in effect.
Specifically, we have already introduced T&A tracking for individual section 332 studies and pending
332 studies. In addition, we have been working with Administration to create: (1) a further breakout
under 3B4 to separate time spent for "Staff Research Studies and Issue Papers" from "Working Papers
and Research Notes" and (2) a breakout under 5B to provide more detailed information on technical
assistance to other agencies. However, in the context of the T&A system we don't see that it is
productive to track self-initiated work other than by: person and general category (i.e., Summaries, IERs
and ITTR's, Research Studies, Working Papers). We will work with timekeepers and staffto ensure that
the new codes are used.

The expanded labor codes will allow us to compare estimated costs approved by the Commission with
actual project costs. This will assist us in making better staffing estimates for future studies. However,
when a study begins, there often is indeterminacy related to data/information sources, availability,
appropriate research methods, etc. To hold staff strictly accountable to estimated budgets, given this
indeterminacy, would likely compromise the quality of the research and hence the utility ofthe research
for our customers and the public. There are built in budget constraints such as competing demands for
staff time and travel funds, management oversight, and the deadlines that help keep teams on track.

The capability to monitor specific projects does come at a cost for Commission timekeepers as the
current T&A system is very labor intensive. Administration indicates that DOl is in the process of
upgrading the T&A system and that this would make tracking of more activities less of a burden.
However, it is likely to be a year or more before this system is available.

In the interim, we propose monitoring (outside of the T&A system) various types of independent research
by publication type and general subject matter. The specific format and content of this report is under
development. We propose updating this report quarterly. It will be available on the intranet along with
the 332 Bi-weekly Report.

On a related matter, we do not believe it is necessary to keep phone logs on all customer assistance calls.
Significant calls from the USTR, Congress, other agencies, and the press that require Commission action
or that could significantly affect the Commission are to be reported to ER. On a quarterly basis, all
offices provide a written report to ER on technical assistance provided to USTR and Congress.


                                                14
              ATTACHMENT 2. COMMENTS ON BACKGROUND TEXT OF IG REPORT




1(1) & 3(5)         Suggest clarifying text to indicate that it is not a surprise that we are not our customers only source
                    of information and that it should not be viewed as a negative. We would not expect our customers
                    to rely on a single source any more than the Commission relies on single sources.

                    The fact that a substantial number of respondents reported that our research is unique or "ground
                    breaking" is noteworthy. Many similar organizations would be pleased with this result. Much of
                    our work is done to answer specific, focused questions from the USTR or the Congress; these
                    questions often deal with significant issues that others in government, industry, or academia are
                    also investigating. In some cases, our requesters are looking for validation of research done by
                    others. Thus, it should not be viewed as a surprise that many respondents (46 % ?) believe our
                    analyses are not unique or ground breaking. Nonetheless, our focus will continue to be to
                    encourage staff to conduct original research that makes use in state of the art analytical methods.
                    [Is 46% correct? There is a typo in that portion ofp.l0.]

                    Clarify that we have done research in certain of the areas mentioned (here and on p.4 (1», and, of
                    course, we attempt to focus on trade-related topics.

1(2),2(4),4(2), &   Update language to reflect current strategic plan and performance plan terminology. For example,
5(1)                we now have a general goal, general objectives, performance indicators, and performance goals.

1(2) & 4(2)         Clarify that everyone does use the T&A system but that up until recently we did not have ability to
                    submit time by individual 332 investigation. Also, everyone working on 332s is to record time by
                    individual proj ect-not just Industries and Economics.

                    Re footnote 2, technical assistance is not really discretionary.

2(3)                Based on Administration data the correct percent figures for FY 2001are 36.1 % for budgetary
                    resources and 38.6% for workyears. These percentages will change every year.

2(4)                Second sentence, suggest changing "In 200 I" to "Beginning with FY 200 I."

4(2)                Regarding solicitation of research ideas from staff--staff are provided many avenues to conduct
                    self-initiated research in areas they deem important and they take advantage of these avenues. This
                    is demonstrated by the large number of IER and ITTR articles, summaries, staff research papers,
                    working papers, and presentations done each year. Certain of these efforts may be given a high
                    priority, such as the development of modeling capabilities in Economics; however, we typically do
                    not prioritize each project since they are efforts of individual analysts and are completed as other
                    work permits.

5(3)                Suggest that the results of interview hinge on the word "annual" and don't recognize that planning
                    is a continuous process in the research offices since level and subject of caseload is so variable.
                    However, as noted in response to Recommendation #1, staff will initiate a more formal "annual"
                    process.

6(1)                Yes, customers do suggest projects directly to staff.




                                                        15
6(2)                                   Should not assume that there is no rational for a project just because it was not articulated on the
                                       information provided. For example, clearly there is rational for modeling enhancements by
                                       Economics and in the Ag division; moreover, early staff research in the AG division was the
                                       precursor to the Processed Foods 332 investigation. However, as noted in response to
                                       Recommendation #1, staff will include a statement of rational in its "annual" planning process.

6(3)                                   Suggests need for cost efficiency and effectiveness performance measures but offers no concrete
                                       suggestions. Due to the great diversity of 332s, it is not possible to establish a single dollar or
                                       work-hour cost standard; however, the new T&A system may provide some opportunity to loosely
                                       compare 332s to see if costs appear "reasonable". Staff is always open to concrete suggestions
                                       regarding performance indicators.

6(4)                                    It is true that managers were not able to keep workhour records on a project basis since the T&A
                                       system did not permit it. However, the question and responses presented give a false impression of
                                       level of oversight. Managers do monitor their employees' activities and performance, and there are
                                       numerous internal due dates to check progress on each project.

7(l-Q&A)                               Budget "boundaries" are a reference point, not a real limit.

                                       Managers did not have access to "actual" expenditures so of course it would be difficult to compare
                                       them to budget. Most projects include multiple staff in many offices and it is virtually impossible
                                       to track all work hours without the detailed centralized system that is now in effect.

7(2)                                   This presentation gives false impression of the situation. A change in T&A system occurred during
                                       your audit and now permits staff to do detailed accounting by 332-this was not a system option
                                       previously.

                                       We do not see a need to monitor discretionary work at the same level of detail as the formal 332
                                       studies; discretionary work tends to be more focused with fewer staff involved on any given
                                       project. Because of this and the overhead associated with such detailed tracking, monitoring by
                                       person and general category is adequate for discretionary projects.

                                       While staffers do not record individual phone calls, they do report time spent in assisting the public.
                                       Also, significant calls from the USTR, Congress, other agencies, and the press that require
                                       Commission action or that could significantly affect the Commission are to be reported to ER. On a
                                       quarterly basis, all offices provide a written report to ER on technical assistance provided to USTR
                                       and Congress.

7(3)                                   According to Administration, the budget justifications are not intended to set specific future goals
                                       for performance indicators. This information is integral to the strategic planning process and is
                                       established in the Commission's annual Performance Plans and reviewed in the annual Program
                                       Performance Reports.

                                       Established performance goals in the Performance Plan are being met.

10 (items 6 and 7)                     Errors in Number column??

   C'lMyFites\OP\IG RESPONSE MEMO TO COMM:332PLANNINOlJV.PD




                                                                       16
